                  UNITED STATES RAILROAD RETIREMENT BOARD

                              OFFICE OF INSPECTOR GENERAL




                       Fiscal Year 2004 Financial Statement Audit
                                 Letter to Management
                          Report No. 05-01, October 25, 2004

To the Board Members:

We audited the consolidated financial statements of the Railroad Retirement Board
(RRB) and have issued our report thereon dated October 25, 2004, in which we
rendered an unqualified opinion. We conducted our audit in accordance with U. S.
generally accepted government auditing standards and the Office of Management
and Budget’s (OMB) audit guidance.

In planning and performing this audit we considered internal control in order to
determine our auditing procedures for the purpose of issuing our report on the
RRB’s principal financial statements and not to provide assurance on internal
control. The maintenance of adequate internal control designed to fulfill the RRB’s
control objectives is the responsibility of management. Because of inherent
limitations in any system of internal control, errors or irregularities may nevertheless
occur and not be detected. Also, controls found to be functioning at a point in time
may later be found deficient because of the performance of those responsible for
applying them. There can be no assurance that controls currently in existence will
prove to be adequate in the future as changes take place in the organization.

A material weakness is a reportable condition that precludes the entity’s internal
controls from providing reasonable assurance that material misstatements in the
financial statements would be prevented or detected on a timely basis. Reportable
conditions are matters coming to our attention that, in our judgment, should be
communicated because they represent significant deficiencies in the design or
operation of internal control that could adversely affect the RRB’s ability to meet its
internal control objectives.

In our auditor’s report dated October 25, 2004, we reported a material weakness in
the RRB’s information security program and a reportable condition in controls over
implementation of changes to laws and regulations. During our audit, we also noted
other matters involving the RRB’s internal control structure and its operation. The
details of our findings concerning internal control are presented in the attached
summary memorandum. However, neither this letter, nor the attached
memorandum, modifies our report dated October 25, 2004, referred to in the first
paragraph of this letter.




844 N RUSH STREET CHICAGO IL 60611-2092                         Printed on recycled paper with soy ink
Letter to Management                                                                    Page 3

                          Memorandum on Internal Control
Material Weakness

Information Security

During FY 2004, the OIG evaluated information security pursuant to the provisions
of the Federal Information Security Management Act. Our reviews disclosed
continued weaknesses in many areas of the RRB’s information security program.
Significant deficiencies in program management and access controls make the
agency’s information security program a source of material weakness in internal
control.

The RRB has undertaken the job of strengthening information security and has
implemented many corrective actions recommended by the OIG and other technical
specialists. However, the agency has not completed the corrective action needed to
eliminate the previously reported deficiencies in training and access controls that
were the basis for the OIG’s original finding of material weakness.

The details of our recent findings with respect to information security are presented
in OIG audit report #04-11, “Fiscal Year 2004 Evaluation of Information Security at
the Railroad Retirement Board,” September 30, 2004.


Reportable Condition

The RRB’s debt recovery program was not updated for changes to agency
regulations that impact interest charges on program debt. As a result, some debtors
were overcharged interest. Although this non-compliance would not have a material
monetary impact in the aggregate, it indicates that the RRB does not have adequate
controls to ensure that changes to laws and regulations are fully implemented.
Agency operations should react timely to changes in laws and regulations.

The Code of Federal Regulations (CFR) provides for the assessment of interest
after the expiration of the period during which debtors may request reconsideration
of the agency’s debt recovery decision and/or waiver of recovery. Effective
December 17, 2002, amendments to the CFR changed the period during which
debtors could request reconsideration and/or waiver of recovery from 30 to 60 days.
The automated system that supports debt management was not updated for the
corresponding change to the date from which interest accrues on delinquent debt.

   1. 	 We recommend that the Bureau of Law review and strengthen controls over
        implementation of changes to laws and regulations.




844 N RUSH STREET CHICAGO IL 60611-2092                        Printed on recycled paper with soy ink
Letter to Management                                                          Page 4


OTHER MATTERS INVOLVING INTERNAL CONTROL

Control Over the Timeliness of Recording Non-FFS Disbursements and Transfers

The Bureau of Fiscal Operations (BFO) needs to strengthen controls over
disbursements and fund transfers that are not initiated through the Federal Financial
System (FFS). In order to ensure the accuracy and timely preparation of the
financial reports, transactions need to be recorded in the proper period. When
disbursements and transfers are initiated through manual processes independent of
FFS, the related journal entries must be entered into FFS manually. We have noted
instances in which routine disbursements were not recorded timely resulting in the
necessity of adjusting such transfers direct to the financial statements.

   2. 	 We recommend that BFO develop a control to ensure timely recording of all
        disbursements.

Controls Over FFS Budgetary Entries

BFO needs to strengthen controls over budgetary accounting. FFS controls the
agency’s budget execution process. Transactions entered into the system should
be appropriately documented and authorized. We have observed that certain high
level budgetary entries, such as those to record appropriations, apportionments and
sub-unit allotments, are recorded in FFS without additional authorization, regardless
of magnitude. In addition, BFO does not maintain documentation to support
individual entries and adjustments.

   3. 	 We recommend that BFO develop additional controls to ensure that support
        and evidence of approval for FFS budgetary entries is maintained.


Controls Over RUIA Quality Assurance Review Process

The Office of Programs performs annual reviews of the quality of benefit
adjudication under the Railroad Unemployment Insurance Act (RUIA) and publishes
their interim findings quarterly. The existing pre-publication review process does not
include sufficient independent review of results to ensure reporting accuracy. As a
result, errors in the gathering or summarization of data may occur and not be
corrected before results are published.

   4. 	 We recommend that the Office of Programs enhance the pre-publication
        review process for the RUIA quality assurance program.
Letter to Management                                                          Page 5


Procedures for RUIA Quality Assurance Review Process

The procedures for the RUIA quality assurance review were last updated
approximately 13 years ago. Informational Bulletin 91-08 references external
guidance, sample sizes, and error definitions that are outdated. As a result, existing
procedure does not accurately reflect current activity.

   5. 	 We recommend that the Office of Programs review and update Informational
        Bulletin 91-08.


FFS Overwrites Some Table Entries

The Federal Financial System (FFS) over-writes some previously entered data if the
journal voucher or standard voucher transaction number duplicates an earlier entry.
We observed that the convention used to number payroll-related vouchers resulted
in duplication that caused the Journal Voucher Line Table (JVLT) entries for the
October 2003 agency payroll to be overwritten by October 2004 data.

   6. 	 We recommend that the BFO revise the numbering convention for payroll
        transactions to ensure that no data is overwritten.

Timing of Transaction Processing

During our review of transfers from the Department of Labor, we observed that BFO
had recorded some transfers into FFS before the date of transfer shown on the
supporting documentation.

   7. 	 We recommend that the BFO review the questioned transactions and revise
        or clarify its procedures as appropriate.

Accounting Procedures for GSA Payroll Information

BFO’s procedures for recording, reconciling and verifying payroll transactions
processed by the General Services Administration (GSA) are not documented.

The RRB implemented GSA’s Electronic Time and Attendance Management
System to record and certify pay and leave data for federal employees beginning in
June 2004. GSA transmits payroll information to the RRB electronically. The RRB
uses that information to update general ledger accounts, generate payroll reports,
and perform related reconciliations. BFO has not yet documented the new
procedures associated with the recently implemented system.
Letter to Management                                                         Page 6


Procedures and controls should be documented to reduce the risk that unforeseen
management and/or personnel changes could disrupt accounting activities.

   8. 	 We recommend that BFO document its procedures and internal controls for
        recording payroll transactions processed by GSA.

Accounting for Financial Interchange Advances

Pursuant to the financial interchange provisions of the RRA, the RRB obtains
advances from the Department of the Treasury. BFO tracks and records interest on
advances separately for current and prior fiscal years. BFO’s analysis allocates
interest according to fiscal year of obligation rather than financial interchange
settlement period. Although all interest is recorded in the same general ledger
account, this misallocation gives the appearance of under-accrual because it results
in additional, unnecessary upward and downward adjustments to the account.

When repayment of the advances takes place each June, BFO’s analysis indicates
that interest has been significantly under-charged through the date of payoff and
they record additional interest expense to account for the excess of disbursement
over accrual. That upward adjustment is unnecessary and causes interest expense
to be over-accrued until it is adjusted back down at the end of the month.

   9. 	 We recommend that BFO revise their method of accounting for interest on
        financial interchange borrowings.

Accounting for the Financial Interchange Receivables

The RRB’s financial statements report interest and principal receivable from the
Social Security Administration’s Old Age and Survivors Insurance and Disability
Insurance trust funds pursuant to the financial interchange provisions of the
Railroad Retirement Act (RRA). The amount recognized is an estimate.

In January 2004, shortly after the OIG opined on the RRB’s financial statements for
FY 2003, BFO increased the accrual for amounts due through September 30, 2003.
This adjustment was based on the Bureau of the Actuary’s communication of
subsequent events in connection with the financial statement audit. This adjustment
appears to have been inconsistent with management’s assertion that the
September 30 accrual was the best available estimate.

   10. We recommend that BFO review its policy concerning post-balance sheet
       adjustments to financial interchange receivables for amounts due at
       September 30.
Letter to Management                                                                      Page 7


Contracting and Appropriation Management

The RRB needs additional controls to ensure that obligations are recorded
consistent with the law and agency policy, and that sufficient documentation is
maintained to support management oversight.

	 We noted a year-end obligation of FY 2004 funds for non-severable services
   that were not expected to be provided until FY 2005. The amount of the
   obligations was $5,000 recorded as a service order (SO) with a “dummy”
   vendor.1
    Although the responsible manager had identified a need for services in the
    forthcoming fiscal year, Federal appropriations law requires that non-severable
    services be funded from the appropriation in effect at the time services are
    rendered. No services were provided during FY 2004.
	 “Dummy” vendors are frequently used to record obligations including travel and
   services which increases the risk of errors in applying appropriations law.
	 We noted an invoice in the amount for $1,349 for services rendered during FY
   2001 for which billing was delayed until FY 2004. The invoice was paid during
   FY 2004 from FY 2003 funds. It could not be readily determined why FY 2003
   funds were used rather than FY 2001.
	 We identified three invoices for maintenance and repair services that were dated
   October 7, 2004, and paid from previous fiscal year funds. We were unable to
   determine the date services were rendered. The invoices did not include the
   date services were rendered and we were advised that the agency does not
   maintain documentation for the date work is performed.
	 We identified an obligation of approximately $24,000 in FY 2001 for services
   recorded with a credit card company as the vendor. We could not readily
   determine whether services had been rendered or payment made.
	 We identified many unexpended prior-year obligations dating back to FY 2000,
   some in large amounts and a few that had been established with a dummy-type
   vendor. We question whether these remain valid obligations.
We recommend that:
    11. the Bureau of Fiscal Operations provide additional training to agency
        managers with authority to incur obligations to ensure they are aware of the
        restrictions on the use of single-year appropriations;
    12. the Bureau of Fiscal Operations review and research unexpended
        obligations and identify those items that should be de-obligated or that may
        represent errors;

1
 The term “dummy” vendor refers to entries in the FFS purchasing subsystem that do not identify a
specific provider of goods or services.
Letter to Management                                                           Page 8


   13. the Office of Administration - Division of Acquisition Management periodically
       review the use of “dummy” vendors to ensure that their use is appropriately
       restricted and limited to those situations for which they have been specifically
       authorized; and

   14. the Office of Administration - Division of Acquisition Management should
       establish minimum requirements for documenting the dates of contractor
       performed services.


MANAGEMENT’S RESPONSE

Management has agreed to review our findings and recommendations and will
advise the OIG of their planned actions through the regular audit follow-up process.
